 AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

POLICING SERVICES GRANT AWARDED TO THE CITY 

           OF NEWARK, NEW JERSEY 





          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



          Audit Report GR-70-12-007 

                  July 2012 

    AUDIT OF THE OFFICE OF COMMUNITY ORIENTED
  POLICING SERVICES GRANT AWARDED TO THE CITY OF
                NEWARK, NEW JERSEY

                         EXECUTIVE SUMMARY

       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Interoperable Communications Technology Grant,
number 2003-IN-WX-0011, awarded to the City of Newark, New Jersey,
(Newark) in the amount $2,787,001. The purpose of the COPS
Interoperable Communications Technology Grant Program was to increase
interoperability among state and local fire, law enforcement, and emergency
medical services.

       Within the Department of Justice, COPS is responsible for advancing
the practice of community policing by state, local, territory, and tribal law
enforcement agencies through information and grant resources. COPS
awards grants to law enforcement agencies to hire and train community
policing professionals, acquire and deploy crime-fighting technologies, and
develop and test policing strategies.

       The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. COPS awarded Newark $2,787,001 to implement the
grant program and required Newark to provide $929,000 in local funds for a
total project cost of $3,716,001.

      We examined Newark’s accounting records, financial and progress
reports, and operating policies and procedures and found the deficiencies
below resulting in net questioned costs totaling $3,539,432.

      Newark significantly changed the scope of the grant project without
       prior written approval from COPS.

      Newark did not achieve the performance objectives related to voice
       communications funded by the grant.

      Newark purchased wireless network equipment and services totaling
       $2,777,569 that were not procured using a competitive process or
       approved for purchase under the New Jersey State Cooperative


                                       i
      Purchasing program, which is in violation of grant regulations requiring
      competition.

     Newark’s pre-existing relationship with the vendor of its $626,221
      mobile communications command center vehicle likely hindered an
      open and competitive bid process.

     Newark claimed reimbursements for surveillance cameras totaling
      $62,325 which COPS denied in Newark’s original grant application
      proposal.

     Newark claimed reimbursements totaling $73,316 for a record
      management system and other computer equipment not related to the
      grant project.

     Newark did not adequately record and safeguard equipment purchased
      with grant funds.

     Newark’s Financial Status Reports were not always timely and its
      Progress Report did not accurately reflect the status of the project.

     Newark’s internal controls were ineffective in preventing or detecting
      noncompliance with a number of grant requirements.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.

      We discussed the results of our audit with Newark officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft report from Newark and COPS, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix V of this report.




                                       ii
                             TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1

Background ................................................................................ 2
Our Audit Approach ..................................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................... 4

Budget Management and Program Performance .............................. 4
Grant Expenditures ...................................................................... 7
Accountable Property ................................................................. 10
Drawdowns................................................................................ 11
Matching Costs........................................................................... 12
Reporting .................................................................................. 13
Internal Control Environment ....................................................... 14
Conclusions ............................................................................... 15
Recommendations ...................................................................... 15

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........ 17

APPENDIX II - SCHEDULE OF QUESTIONED COSTS .................. 18

APPENDIX III – NEWARK’S RESPONSE TO THE DRAFT
  AUDIT REPORT .................................................................... 19

APPENDIX IV – OFFICE OF COMMUNITY ORIENTED POLICING
    SERVICES RESPONSE TO THE DRAFT AUDIT REPORT ...... 31

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
    CLOSE THE REPORT ......................................................... 35
                                 INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Interoperable Communications
Technology Grant, number 2003-IN-WX-0011, in the amount of $2,787,001,
awarded by the Office of Community Oriented Policing Services (COPS) to
the City of Newark, New Jersey (Newark).1 The purpose of the Interoperable
Communications Technology Grant program was to increase interoperability
among state and local fire, law enforcement, and emergency medical
services.

       Within the Department of Justice, COPS is responsible for advancing
the practice of community policing practices by state, local, territory, and
tribal law enforcement agencies through information and grant resources.
COPS awards grants to law enforcement agencies to hire and train
community policing professionals, acquire and deploy crime-fighting
technologies, and develop and test policing strategies.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. As shown in the table below, Newark was awarded a total
of $2,787,001 to implement the grant program.

           Interoperable Communications Technology Grant to
                          Newark, New Jersey
                                AWARD            AWARD
      GRANT AWARD                                                AWARD AMOUNT
                              START DATE        END DATE
    2003-IN-WX-0011            09/01/03          01/31/08         $ 2,787,001
Source: COPS

     Newark was also required to provide local matching funds equal to 25
percent of the grant award. Including the matching funds for the project in
the amount of $929,000, the total funding for the project was $3,716,001.




       1
         The use of Newark refers to the Newark Police Department, Division of Purchasing
and Department of Finance, which were responsible for various grant administration
procedures.

                                           -1-
Background

       In FY 2003, COPS was appropriated approximately $67 million to
administer the Interoperable Communications Technology Program; a
competitive grant program for state and local jurisdictions to improve
communications within and among law enforcement agencies. The rules
established for the grant program included a $6 million limit on federal
participation for individual grants and required grantees to provide a local
match equal to at least 25 percent of the total value of the grant-related
project.

      Newark was 1 of the 74 Metropolitan Statistical Areas that COPS
preselected or invited to compete for grant funding. COPS asked that those
seeking funding submit comprehensive proposals to include a clear and
demonstrated plan for improving interoperability. From those that were
invited, 58 agencies, including Newark, submitted proposals.

      In collaboration with the Federal Emergency Management Agency,
which administered a similar program for a different pool of applicants,
COPS used a peer review selection process to identify the most suitable
projects to be funded. This peer review panel included members of the
public safety community, the National Institute for Standards and
Technology, the Wireless Public Safety Interoperable Communications
Program, and the National Institute of Justice's Advanced Generation of
Interoperability for Law Enforcement Program. Based on the results of the
peer review, COPS awarded grants to Newark and 13 other agencies.

Our Audit Approach

       We tested Newark’s compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in Code of Federal Regulations: 28
CFR § 66, Uniform Administrative Requirements for Grants and the terms
and conditions contained within the grant award documents.

      In conducting our audit, we performed testing of Newark’s:

            Budget management and Program Performance to
             determine the overall acceptability of budgeted costs by
             identifying any budget deviations between the amounts
             authorized in the budget and the actual costs incurred for each
             budget category. Also, to determine whether Newark achieved



                                     -2-
            the grant’s objectives and to assess performance and grant
            accomplishments.

           Grant expenditures to determine whether the costs charged to
            the grant were allowable and supported.

           Accountable property to determine whether Newark has
            effective procedures for managing and safeguarding assets
            acquired with grant funding.

           Drawdowns (requests for grant funding) to determine if
            Newark adequately supported its requests for funding and
            managed its grant receipts in accordance with federal
            requirements.

           Matching costs to determine if Newark provided matching
            funds that supported the project and were in addition to funds
            that otherwise would have been available for the project.

           Reporting to determine if the required periodic Financial Status
            Reports and Progress Reports were submitted on time and
            accurately reflected grant activity.

           Internal control environment to determine whether the
            financial accounting system and related internal controls were
            adequate to safeguard grant funds and ensure compliance with
            the terms and conditions of the grant.


     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                    -3-
                 FINDINGS AND RECOMMENDATIONS

           We determined Newark: (1) changed the scope of its grant
           without prior written approval from COPS; (2) failed to
           achieve the grant objective of interoperable voice
           communication with the COPS grant funds as specified in its
           application; (3) made unallowable expenditures, including
           wireless network equipment and a mobile communications
           command center vehicle; (4) did not properly safeguard
           grant-funded equipment; and (5) submitted late Financial
           Status Reports and an inaccurate Progress Report. We also
           identified a number of internal control deficiencies that
           contributed to these audit findings.

Budget Management and Program Performance

      As described in the introduction of this report, Newark’s grant was
funded by the 2003 COPS Interoperable Communications Technology
Program, a competitive grant program that funded 14 of 58 agencies that
submitted applications. An expert peer review selection panel selected
Newark and 13 other agencies to receive grants under this program. The
proposals submitted by the 14 agencies were deemed as the best qualified
applicants by the panel.

       In its proposal, Newark described that it would use grant funds to
implement an information and communication program that included an
interoperable voice and data system that could be used by surrounding
jurisdictions. The system, available to multiple jurisdictions beyond Newark
and to a variety of emergency-related agencies, would facilitate the
seamless exchange of emergency communications and data. One of the four
major components of the program included equipment for a Radio over
Internet Protocol system, or RoIP2, that would provide the system’s voice
communications.3 The proposal described voice communication as “the
cornerstone of interoperability that enables public safety agencies to talk
between and among one another via radio.”



       2
         Radio Over Internet Protocol (Radio Over IP or RoIP) is a method of transmitting
voice communications via Internet Protocol (IP), a data communications standard used to
power the Internet as well as home, business and government computer networks.
       3
        The three other components were (1) mobile wireless network and gateway switch,
(2) mobile communications command center vehicle, and (3) video surveillance cameras.



                                           -4-
      The expert peer review panel determined that Newark’s proposed
project “…represents a comprehensive, integrative approach to serve a
highly urbanized core and suburban areas… [and the] technological
application of components are a combination of existing and cutting edge
equipment for total network design.”

       The proposed budget for the program discussed in the original
application totaled $5,516,982, including $4,137,737 to be funded by the
COPS grant and $1,379,246 to be provided by Newark as a cash match.4
COPS reduced the proposed budget by $1,800,981, with the reductions
including $929,500 for surveillance cameras and related equipment.
Although Newark’s proposal stated one of the strategic uses for the
surveillance cameras was to monitor facilities in areas that were vulnerable
to terrorism, COPS determined that this type of equipment should not be
funded by the Interoperable Communications Technology Program.

      After revising Newark’s original project budget as described above,
COPS approved a final grant program budget totaling $3,716,001. This final
budget included $2,787,001 in COPS grant funds and $929,000 to be
provided by Newark as a local match to the grant.

       We reviewed this final budget and identified four general subcategories
of equipment for each of the project’s components. We then compared the
budgeted amounts of each category with Newark’s actual spending related
to this project. The following table summarizes this comparison.

        Comparison of Budgeted and Actual Equipment Costs
Grant Expenditure                 Budget            Actual
Network Equipment               $      857,973      $ 2,209,197
Network Installation Services          741,350          807,267
Radio Over Internet Protocol
(RoIP) Equipment                     1,516,678                -
Mobile Communications
Command Center Vehicle                 600,000          626,221
Equipment not Related to the
Grant Project                                -           73,316
Total                         $     3,716,001     $ 3,716,001
Source: OIG analysis of Newark records

     As shown in the preceding table, Newark purchased none of the
budgeted Radio over Internet Protocol equipment that was established in the

      4
          The figures included in this report were rounded to whole dollar amounts.


                                            -5-
grant application and approved by COPS within the final approved budget.
As a result, the grant-funded project implemented by Newark did not include
any voice communication capability.5

      According to a Newark official, radio equipment was not purchased
because Newark decided against using the technology identified in its
proposal. Specifically, this official told us that after the grant proposal was
submitted to COPS, Newark determined the technology associated with the
original proposal would not work if deployed in Newark. In October 2003,
Newark informed COPS that it intended “…to explore alternatives to ensure
best practice is achieved. Should the Police Department eventually change
technical direction, a revised budget and rationale will be sent to the COPS
Office for review and approval.” However, we confirmed with COPS that
Newark did not submit a revised budget or rationale for any changes it made
to the scope of its project. According to the Newark project manager, the
RoIP capability was no longer viable and new voice capabilities would need
to be researched and developed in order for Newark to achieve its voice
communication objectives.

      As the budget for this grant consisted of just one cost category,
equipment, Newark did not violate grant requirements that govern the
transfer of budgeted costs among categories. However, we believe the
project Newark implemented utilizing grant funds was significantly different
than the project it proposed through the competitive application process,
and note that the voice communications component of the project was likely
a significant basis for COPS’ decision to fund this grant.

      According to the Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments, 28 C.F.R § 66.30,
grantees must obtain prior approval of the awarding agency when there is
“any revision of the scope or objectives of the project regardless of whether
there is an associated budget revision.”

      We believe Newark’s decision to not implement the voice
communication component of the project has severely compromised the
performance of this project and prevented Newark from adhering to the
purpose of the COPS Interoperable Communications Technology Program.
As Newark revised the scope and objectives of its project without approval
from COPS, as required, and did not achieve with the COPS grant the
interoperable voice communication objectives as stated in its application,

      5
        In the Grant Expenditures section of this report we describe the results of our
examination of the actual costs related to this grant.



                                        -6-
which this grant was predicated on, we question $3,539,432 in net project
costs.6

Grant Expenditures

      To determine if costs were allowable and supported, we reviewed
accounting system data, invoices, and project records. We also evaluated
Newark’s procurement policies and procedures, as they were required to
conform to federal procurement regulations set forth in the 28 C.F.R §
66.36. We determined that Newark; (1) made unallowable project
expenditures for wireless network equipment and installation services, (2)
purchased a mobile communications command center using a flawed
competitive bidding process, and (3) made purchases using project funding
for unapproved equipment unrelated to the grant-funded project.

Wireless Network Equipment

      We reviewed Newark’s purchasing procedures for the wireless network
component of the grant project and determined that Newark purchased
equipment using a state of New Jersey contracting vehicle – the
Minicomputer, Microcomputer, Workstations, and Associated Products state
(Mini-Micro) contract. In accordance with the State of New Jersey (State)
Public Contracts Law, and Newark’s Purchasing and Contracting Policies
Manual, municipalities, including Newark, are permitted to purchase goods
and services from contracts negotiated by the State of New Jersey
Department of Treasury, Division of Purchase and Property. Only goods and
services that have been pre-negotiated and pre-approved by the state can
be purchased through the contract.7

      In 2004, Newark received estimates from three firms interested in
providing the wireless network equipment for the project under the State’s
Mini-Micro contract. Newark selected a vendor that was subsequently
approved by the Newark City Council in September 2004. We reviewed
records from Newark and the State to determine whether the equipment to

       6
          As discussed in the drawdown section of this report, Newark did not draw down all
of the grant funds. While we question the entire grant-funded program, our recommendation
to remedy questioned costs excludes those funds not drawn and the 25 percent match
associated with the undrawn funds.
       7
          The Mini-Micro contract included multiple vendors with separate contracts. The use
of state contracts by municipalities is called the New Jersey Cooperative Purchasing Program.
The Mini-Micro contract has been replaced since it was used by Newark for this grant project
and is no longer used by New Jersey or its municipalities.



                                            -7-
be purchased from the vendor was authorized for purchase under the
vendor’s Mini-Micro contract. These documents included the vendor’s
request submitted to state contracting officials to amend its Mini-Micro
contract and permit the purchase of the equipment included in Newark’s
project quote.

      Although the vendor’s request included the equipment that was
eventually sold to Newark, the records we reviewed indicated that only a
portion of the requested equipment was approved by the state to be
purchased under the Mini Micro contract.8 Specifically, of the equipment
sold to Newark, which totaled about $2,146,872 for the project, we
determined the State only approved a portion of the equipment to be
included within the contract, which amounted to about $309,770 (about
14 percent) of the grant-funded program expenditures. As a result, Newark
purchased $1,837,102 in equipment that was not pre-approved by the state,
and therefore not authorized to be sold under the vendor’s Mini-Micro
contract. We consider those items not approved under the Mini-Micro
contract in effect to have been procured non-competitively, which violates
federal regulations that require competition.

       We believe that Newark should not have used the Mini-Micro contract
to procure these items because: (1) the project estimate provided by the
selected vendor was given as a complete project, (2) the vendor was not
authorized to sell all of the equipment cited in the estimate, and (3) the non-
competed equipment amounted to 86 percent of the costs. Newark should
have competitively bid the project in accordance with its own purchasing
policies and the federal procurement regulations contained in 28 C.F.R §
66.36. For this reason, we question a total of $2,777,569 in net
expenditures, of the total $2,954,138, in wireless network expenditures as
unallowable due to the non-competitive procurement. The equipment
expenditures included $2,146,872 in grant expenditures used to make
purchases using the Mini-Micro contract and $807,267 in related installation
services, as unallowable due to the non-competitive procurement.

      We determined that although the Newark Division of Purchasing
reviewed and approved the Police Department’s use of the Mini-Micro
contract for the grant funded project, there was a failure to identify and
prevent the purchase of unauthorized equipment under the Mini-Micro
contract.



       8
          The request did not include $89,374 for radios and $38,220 for licensing, which are
included in the $2,146,872 in equipment sold to Newark.

                                           -8-
Mobile Communications Command Center Vehicle

       Newark included a mobile communications command center vehicle in
its grant application and requested permission from COPS to purchase it
using a sole source contract. COPS approved Newark’s purchase of the
vehicle, but denied its sole source request and required Newark obtain the
vehicle using full and open competition in a manner consistent with the
standards set forth in the 28 C.F.R. § 66.36.

       We reviewed the process Newark used to select the vehicle contractor
and determined that it did not adhere to procurement requirements
contained in the Newark Purchasing and Contracting Policies Manual related
to relationships with bidders and vendors.

      Specifically, we are concerned that Newark’s pre-existing relationship
with the vehicle vendor that was selected to provide the command center
may have compromised the competitiveness of the selection process.
According to Newark’s Purchasing and Contracting Policies Manual,
discussions with prospective bidder should be carefully managed to avoid
giving any bidder the benefit of information to which other bidders may not
have access.

      We determined that, in support of Newark’s denied request for a sole
source contract, the vendor provided Newark with several bid specifications
and prototype drawings at least 10 months before the advertisement of the
bid. We believe that this pre-existing relationship likely provided the vendor
with an unfair advantage in preparing its bid proposal. 9 Although 15 firms
responded to the bid advertisement, only the eventual vendor submitted a
proposal.

       We believe Newark’s pre-existing relationship and the exchange of
information with its vehicle vendor likely hindered open and competitive
bidding. As a result, we question as unallowable the purchase of the vehicle
totaling $626,221.




      9
          Newark documents we reviewed indicated the vendor that helped Newark develop
the specification was the only vendor that submitted a bid.



                                         -9-
Surveillance Cameras and Expenditures not Related to the Grant

      In our review of grant expenditures, we also found Newark charged
the grant $62,325 for video surveillance cameras, $70,303 for a partial
payment on a record management system, and $3,013 in other computer
equipment. We found the video surveillance expenditures to be unallowable.
Specifically, we determined that Newark submitted in its original application
costs for the video surveillance cameras and related items, but COPS denied
these items while approving Newark’s overall project. In addition, we
question as unallowable the record management system and other computer
equipment, totaling $73,316, as we found that these expenditures were not
related to the COPS funded project, but were for a separate Newark
technology project.10

      According to officials responsible for approving Police Department
purchases, the purchase approval process did not include a review of the
grant-funded expenditures to ensure that costs were approved in applicable
grant budgets.

Accountable Property

       We determined that Newark did not create a system of property
records that could be used to safeguard the equipment related to this grant.
According to 28 C.F.R. § 66.32, Newark was required to maintain property
records including a description of the property, a serial number or other
identification number, the source of property, the title holder, the acquisition
date, cost of the property, percentage of Federal participation in the cost of
the property, the location, use and condition of the property, and any
ultimate disposition data including the date of disposal and sale price of the
property. In addition, Newark was required to conduct a physical inventory
of the property and reconcile the results with its property records at least
once every two years. Police Department officials told us the grant-related
equipment was not recorded in a property management system because the
police department did not maintain such a system during the grant award
period. In addition, officials told us no periodic inventories of grant-funded
equipment were performed. As a result, Newark could not show us
documentation indicating how this equipment had been used and whether
specific items had already been disposed of and in which manner.

       10
           We found that the video surveillance equipment was also not competitively
procured as was the case with the wireless network equipment. However, to avoid
duplication of questioned costs, we excluded the surveillance equipment from the $2,146,872
in questioned Mini-Micro contract equipment discussed in the Wireless Network Equipment
section above.

                                          - 10 -
       Despite the lack of property management records, we attempted to
inspect examples of grant- related wireless equipment installed around
Newark. We accompanied police department and vendor representatives
who showed us equipment installed in various locations. The equipment we
were shown appeared to be used in a manner that was generally consistent
with project plans, however, due to the lack of a property management
system, including serial numbers or alternate methods, to specifically
identify individual items of equipment purchased, it was not possible to
verify that the equipment we were shown was purchased through the grant-
funded program.

      As a result of these deficiencies, we determined that Newark failed to
comply with the 28 C.F.R. § 66.32 and equipment costs of $2,282,513 were
unsupported. This does not include the remaining equipment expenditure of
$626,221, which was related to the mobile communications command center
vehicle. Because the vehicle was easily identifiable and we were able to
inspect and confirm its condition, we did not include the vehicle in this
dollar-related finding.

Drawdowns

      We reviewed the timing and amounts of grant funding requests, also
known as drawdowns, Newark made for this grant. In total, Newark drew
down funds totaling $2,654,574, or 95 percent of the federal share of the
grant award of $2,787,001. We found that Newark did not request
reimbursement for the remaining federal funds, totaling $132,427, for a
$176,568 invoice for wireless network equipment installation services and a
negligible sum of unobligated project costs.

     The following table presents the initial COPS award, Newark’s
drawdowns of the grant award, and the rescission of award amounts not
requested by Newark.




                                   - 11 -
                      Summary of Grant Funding Events
                    Action              Date          Amount
            COPS Grant Award                09/01/2003             $2,787,001

            Newark Drawdown #1                04/03/2006            $1,924,240
            Newark Drawdown #2                08/09/2006              $229,989
            Newark Drawdown #3                11/03/2006              $500,345
            Total Drawdowns                                        $2,654,574

            COPS Grant Award
            Deobligation11                  08/22/2008                $132,427
        Source: COPS

        Because Newark made each of the three drawdowns on a
reimbursement basis, we determined that Newark complied with grant-
related cash management regulations.

         To understand why COPS deobligated $132,427 from the grant
award, we discussed the issue with COPS and Newark officials. COPS
officials told us the award amounts not requested by August 2008 had to be
deobligated because the grant expired on January 31, 2008, and grantees
must make their final drawdown within 90 days of the grant expiration date.
Newark officials told us the final drawdown was not requested because of
miscommunication between its Finance and Treasury Departments.

        While we have questioned the entire grant-funded program amount
in the grant expenditures section of this report, because Newark did not
draw down the entire grant award amount, we have reduced our questioned
costs by the amount not drawn by Newark.

Matching Costs

      The COPS-approved budget for Newark’s interoperability project
required a $929,000, or 25 percent local cash match. On March 17, 2004,
the Newark City Council passed a resolution to appropriate $929,000 for the
express purpose of meeting the Interoperable Communications Technology
Grant cash match requirement. After reviewing Newark’s accounting
records, we determined that Newark used these local funds to meet its
match requirement of 25 percent of the grant expenditures. Although

       11
           Newark did not request the total grant award amount from COPS for the project.
As a result, the total grant award was not used to reimburse Newark and after that grant
period, COPS rescinded the remaining funds.

                                          - 12 -
Newark met the match requirement, the related expenditures were
unallowable and unsupported as described in the Internal Control
Environment, Grant Expenditures, Budget Management and Controls,
Accountable Property, and Program Performance and Accomplishments
sections of this report.

Reporting

      Financial Status Reports (FSRs) summarize federal monies spent,
planned to be spent, and the remaining balances for each calendar
quarter.12 Progress reports are the principal method COPS uses to monitor
program performance of its grants. We determined that Newark did not file
timely FSRS and the required progress report was not accurate.

Financial Status Reports

      Between August 2004 and October 2007, Newark submitted 16
quarterly FSRs to COPS. We determined these FSRs accurately represented
cumulative expenditure amounts identified in the grant account records.

      We also reviewed these FSRs for timeliness and found that 8 of the 16
reports were submitted later than 45 days following the end of the quarter
as required. On average, these 8 reports were late by 50 days beyond the
45 day due date. We asked Newark officials why these reports were late,
but they told us they could not specify the reason because the officials who
submitted these reports were no longer with the Newark Police Department.

Progress Reporting

       COPS required Newark to provide one progress report that was
submitted timely in 2008. In this report, Newark indicated that it had
purchased all the equipment and technology associated with its grant award
and did not experience any challenges or difficulties implementing the
project goals or achieving the related objectives. We determined this
progress report was not accurate because, while it stated that it had
purchased everything for the grant program, it did not alert COPS to the
significant changes made to the project, and how, as implemented, the
approved project objectives that included voice communications were not
being achieved. As discussed in the Budget Management and Controls


       12
          As of October 2009, FSRs were revised and renamed Federal Financial Reports
(FFRs). However, as the grant award period for this grant was prior to this change, we refer
to the reports as FSRs within this report.

                                           - 13 -
section, Newark did not purchase $1,516,678 in voice communications
equipment included in the approved budget.

      Newark officials told us the report was not prepared by the project
manager and this resulted in an inaccurate report. We believe inaccurate
reporting compromises COPS’ ability to ensure the objectives of its
Interoperable Communications Technology Program are met.

Internal Control Environment

      We reviewed Newark’s internal control environment as it relates to the
objectives of this COPS grant audit. This review included reviewing prior
audits to identify past instances of noncompliance with laws, regulations,
guidelines, and the terms and conditions of grants. We also interviewed
Newark officials, reviewed policies and procedures related to grant
administrative duties, and inspected project and accounting records.

      We reviewed an OIG audit report from June 1998 that covered four
COPS grants totaling $21.1 million.13 The purpose of the grants was to
enhance community policing by hiring and redeploying 326 officers. In that
report, we made 8 recommendations and identified questioned costs totaling
$2.7 million, or more than 10 percent of the grants.14

      During this audit, we identified problems with Newark’s internal control
environment related to administration of the 2003 COPS grant. As
discussed, we found that Newark did not (1) reconcile purchase requisitions
to the Mini-Micro state contract thereby ensuring only authorized items were
purchased, (2) comply with its policies and procedures to ensure that the
mobile communications command center vehicle purchase was awarded to
the vendor based on full and open competition, (3) approve expenditures in
accordance with the grant budget, and (4) track grant funded equipment in
a property management system.




       13
          U.S. Department of Justice Office of the Inspector General (OIG), Community
Oriented Policing Services Grants to the Newark, New Jersey Police Department, Report GR-
70-98-007 (June 1998).
       14
          As a result of this audit, COPS barred Newark from receiving any competitive COPS
funding from December 2007 through in December, 2010.



                                          - 14 -
Conclusions

      We determined Newark (1) changed the scope of its grant without
prior written approval from COPS and failed to achieve with the COPS grant
the grant objective of interoperable voice communication as approved in its
award application, (2) charged the grant for unallowable expenditures for
wireless network equipment and a mobile communications command center
vehicle, (3) did not properly track grant funded equipment, and (4)
submitted late Financial Status Reports and an inaccurate Progress Report.
We also identified a number of internal control deficiencies that contributed
to these audit findings.

Recommendations

We recommend that COPS:

   1. Remedy the $3,539,43215 in unallowable expenditures resulting from:

       (a)    project changes that were not approved by COPS and failure to
              achieve the voice communication objective of the grant (net
              project costs of $3,539,432),

       (b)    purchase of equipment not competitively procured and not
              authorized for purchase under the New Jersey Cooperative
              Purchasing Program (net expenditures of $2,777,569),

       (c)    purchase of a mobile communications command center vehicle
              procured in a manner that likely hindered an open and
              competitive bid process ($626,221),

       (d)    purchase of surveillance cameras denied by COPS during the
              grant budget review ($62,325), and

       (e)    purchase of a record management system and other computer
              equipment not related to the project ($73,316).

   2. Remedy the $2,282,513 in expenditures for equipment not adequately
      supported or safeguarded by a property management system with
      periodic inventories.


       15
          As discussed in the drawdown section of this report, Newark did not drawdown all
of the grant funds, therefore this recommendation excludes those funds not drawn and the 25
percent match associated with the undrawn funds.

                                          - 15 -
3. Ensure Newark implement and adhere to policies and procedures for
   submitting timely FSRs and accurate progress reports.

4. Ensure that Newark implements and adheres to policies and
   procedures to adequately administer grant funding that address our
   concerns over the related internal controls. These include, but should
   not be limited to the following: adhering to procurement regulations,
   approving grant expenditures in accordance with applicable budgets,
   and safeguarding equipment.




                                - 16 -
                                                               APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) budget management and program performance
(2) grant expenditures, (3) accountable property, (4) drawdowns,
(5) matching costs, (6) reporting, and (7) internal control environment. We
determined that program income, indirect costs, and monitoring of
contractors and subgrantees were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the grant on September 1, 2003, through January 31, 2008. This was
an audit of the Interoperable Communications Technology Grant
number 2003-IN-WX-0011. Newark had a total of $2,654,574 in
drawdowns through August 2008.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in Title 28, Part 66, Code of Federal
Regulations, Uniform Administrative Requirements for Grants and the award
documents.

      In conducting our audit, we reviewed all claimed grant related
expenditures and drawdowns. In addition, we reviewed the timeliness and
accuracy of FSRs and Progress Reports, and evaluated performance to grant
objectives. However, we did not test the reliability of the financial
management system as a whole.




                                   - 17 -
                                                                          APPENDIX II


             SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                                     AMOUNT          PAGE
                                                                      $3,539,432
Total Unallowable Expenditures16

A. Unallowable project changes not approved by COPS and failure        3,539,432            7
   to achieve the voice communication objective of the grant

B. Unallowable wireless network equipment not competitively            2,777,569            8
   procured and not authorized for purchase under state contract.

C. Unallowable mobile command center vehicle procured in a                626,221        10
   manner that likely hindered an open and competitive bid
   process.

D. Unallowable surveillance cameras denied by COPS during                  62,325        10
   budget approval process.

E. Unallowable record management system not in approved                    73,316        10
   budget and unrelated to project.

Total Unsupported Expenditures - Equipment not                        $2,282,513         11
adequately supported or safeguarded

GROSS QUESTIONED COSTS                                                $5,821,945

LESS DUPLICATION17                                                  ($2,282,513)

NET QUESTIONED COSTS                                                $3,539,432


 Questioned Costs are expenditures that do not comply with legal, regulatory, or
 contractual requirements, or are not supported by adequate documentation at the time of
 the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
 offset, waiver, recovery of funds, or the provision of supporting documentation.




        16
            The amount for unallowable project expenditures includes the breakdown of costs
 listed beneath the heading. As discussed in the drawdown section of this report, Newark did
 not drawdown all of the grant funds, therefore this recommendation excludes those funds not
 drawn and the 25 percent match associated with the undrawn funds.
        17
           Some costs were questioned as both unallowable and unsupported. Net questioned
 costs exclude the duplicate amount.

                                           - 18 -
                                                                                              APPENDIX III



    CITY OF NEWARK’S RESPONSE TO THE DRAFT AUDIT
                       REPORT



/                                                                  , -8
                                                                   -
     Cory A. Booker                                                                           Samuel A. DeMaio
     Mayor                                                                                        Police Director




                                                  April 13, 2012

         Via Email (Thomas.o.Puerzer@usdoi.gov! and Regular Mail
         Thomas O. Puerzer
         u.s. Department of Justice
         Office ofthe Inspector General
         701 Market Street, Suite 201
         Philadelphia, PA 19106

         Re:     Draft Audit Report of the Office of Community Oriented Policing Services Grant
                 Grant Number 2003-IN-WX-00II

         Dear Mr. Puerzer:

                 I have your office's Draft Audit Report of the Office of Community Oriented Policing
         Services ("COPS") Grant dated March 20, 2012 regarding the Newark Police Department's
         ("NPD") use of the above-referenced grant. As you are aware, our response was due within 21
         days of March 20th. Accordingly, our response was originally due on or before April 10, 2012 .
         We thank you for your consideration and extension of time to respond permitting a response up
         to April 17, 2012. We trust this response will adequately and fully address all Recommendations
         set forth in the Draft Audit Report.


                 Initially, and as you aware, NPD applied for and sought to use grant funds to implement
         an information and communication program employing interoperable voice and data systems.
         The successfully deployed system would be multi-layered and able to facilitate seamless
         exchange of emergency communication and data. Essentially, NPD sought to create a system
         that would allow first responders to effectively and efficiently coordinate, communicate and
         share vital information. This would achieve the vital purpose of interoperability among the




         480 Clinton Avenue' Newark· New Jersey 07108 'Telephone 973-733-6007 . www.newarkpdonline .org




                                                   - 19 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 2 of12

public safety community. I would submit that the present state of the NPD's Interoperable
Communication Technology exemplifies the spirit of this particular COPS grant.
       Presently, as you are aware, NPD operates on a Wireless Network utilizing licensed and
unlicensed Point-to-Point and Point-to-Multi Point connections employing, among other things,
Frequency Hopping Technology, Short Range Propagation, Small Cell Implementation and
Narrow Transmission Beam Width (to reduce RF interference) and robust proprietary
authentication, modulation and encryption security measures.       This foundation was created
utilizing the 2003 COPS grant and has enabled significant leaps in viability and information
sharing capability.


       Over the past several years, NPD has engaged in an ambitious and aggressive overhaul of
its Interoperability and Communication and Data Sharing platform. Our 24 square mile network
supports NPDlNewark Fire Department, University Hospital Emergency Medical Services,
Prudential Arena and NPD's Mobile Command Vehicle's communication and data sharing
requirements.    Further, NPD dispatch can now communicate with Offices of Emergency
Management from any police department and over 60 other pa11icipating agencies throughout the
State. Connect-ability is simple ... all 60 agencies appear on an application screen in an address
tree. The Operator simply selects the participating agency and speaks - the system bridges radio
technology. The COPS Interoperability Grant helped fund the basis of what is now a strong
scalable network.


       NPD has achieved these goals in various phases detailed below.          Additional phases
remain to achieve full functionality. The COPS lnteroperability Grant was considered Phase I of
our network expansion and rebuilding effort. The $3.7 million in funds was used to create the
wireless network foundation upon which other advances would be built. Phase 2 allowed NPD
to upgrade various wireless core links and to further expand the network to its fleet vehicles.
NPD also installed 50 surveillance cameras within various Newark Urban Enterprise Zones and
created a 3-seat surveillance room to monitor the cameras. This Phase was financed with an
Urban Enterprise Zone grant of$1.4 million.




                                           - 20 -
Thomas o. Puerzer
u.s. Department of Justice
April 13, 2012
Page 3 of12




       Phase 3 and 4 saw significant improvements in Newark's surveillance and response
capability. Specifically, utilizing West Ward Economic Development Funding of $300,000 and
a Community Foundation of New Jersey Grant of $3.2 million, NPD was able to purchase
additional upgrades to its wireless network foundation sufficient to support the addition of 10
new surveillance cameras within Newark's West Ward as well as network upgrades permitting
the addition of 50 other surveillance cameras.      Additionally, we were able to increase our
gunshot detection footprint to a 7 square mile radius. This Phase also saw NPD increase its
surveillance monitoring from 3 seats to 8 seats. Again, the 2003 COPS grant built the foundation
for this expansion.


       Phase 5 saw an increase in Interoperability as NPD interfaced with the security detail for
the Prudential Center Arena. NPD and the Prudential security team improved the wireless
network foundation created using the 2003 COPS grant by making upgrades and interfaces
which helped create a "secure zone" around the Arena. This Phase was funded utilizing a 2007
Urban Area Security Initiative grant of $799,000.


       Additional Urban Area Security Intiative funding was used to accomplish Phase 6.
Specifically, additional upgrades to the 2003 COPS funded wireless network infrastructure were
purchased to enable significant increases in effectiveness of policing surveillance and response in
the downtown and college area. Specifically, in terms of equipment, NPD utilized a 2007 Urban
Area Security Initiative grant to install a 3D interactive map model of the downtown area, LPR
Readers and 2 ICXT DefendIR (FLIR) Surveillance Platforms. These improvements directly
benefit the downtown business community as well as the police departments for Rutgers­
Newark, NJ Institute of Technology, Essex County College and New Jersey Transit.
Additionally, NPD anticipates significant demands for data and cooperation fi·om nearby
municipalities issuing BOLOs and responding to other investigative needs.




                                           - 21 -
Thomas O. Puerzer
U.S. Department of Justice
April!3,2012
Page 4 of12


       We are excited to point out that Phase 7 of our plan (which is being rolled out presently)
will involve implementation of a Visual Analytics' Digital Information Gateway (DIG). NPD is
utilizing 2012 Urban Area Security Initiative funding to deploy the system at our new
headquarters. Once deployed, the DIG will allow NPD, via the use of the original wireless
network created through the 2003 COPS grant, to connect to New York Police Department, New
Jersey State Police ROrC in Trenton, NJ, Department of Transportation, Jersey City Office of
Emergency Management as well as other agencies.


       The ability to achieve this level of growth and interoperability is due to availability of the
2003 COPS grant and the manner in which it was employed. I would submit that the 2003
COPS grant has been utilized in the manner and fashion intended by the spirit of the grant. As
per your instructions, r will address each Recommendation on a recommendation-by­
recommendation basis in the order in which the recommendations appear indicating concurrence
or non-concurrence with appropriate response.


    1. Remedy the $3,539,432 in unallowable expenditures resulting from:
           a. Project changes not approved by COPS and failure to achieve the voice
               communication objective of the grant.
           Non-concurrence - NPD understands that the implementation of the wireless network
           foundation and subsequent expansion of its utilization differed from the plan
           described in its grant proposal but submits that the changes were sufficiently
           communicated to COPS and the revised plan achieves the voice communication
           objectives ofthe grant.
               As described by NPD in our grant proposal and consistent with the COPS
           objective, NPD has used the grant funds to implement a robust and technologically
           relevant and scalable information and communication program that includes
           interoperable voice and data systems that will be available to a wide range of
           jurisdictions and agencies. Granted, NPD admittedly envisioned this network would
           be built on a Radio Over Internet Protocol system ("RoIP"). However, subsequent




                                            - 22 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 5 of12


           research into the viability of the technology as well as vendor concerns prompted a
           prudent change of direction into wireless technology and Mutualink solution. As
           acknowledged in the Draft Audit Report, these concerns were communicated to
           COPS and our intentions were clear.
               NPD's decision to pursue the Mutualink solution was influenced by their ability
           to bridge the radio 'divide' by using hardware, software and network/internet
           connections. As you are undoubtedly aware, the Mutualink system brings all radio
           transmissions, analog and digital, in any spectrum, into simple-to-use user interface
           on a standard PC. Operators in dispatch can now communicate with EMS, hospitals,
           OEMs throughout the State as well as any other participating agency without concern
           about securing the appropriate channel, being patched through or other radio-related
           concerns. It was clerical oversight that budget revisions were not transmitted to
           COPS; however, subsequent audit inspection and explanation should have verified
           that the 2003 COPS funds were used in a manner consistent with the spirit and
           intention ofNPD's grant proposal.
               More specifically, NPD became concerned with certain security and vendor issues
           that prompted a rational change in direction. As this is a public document suffice it to
           say that in-depth research caused NPD to become seriously concerned regarding the
           security of protocols utilized by the vendor identified in our grant proposal as well as
           concerned about the veracity of certain advertised claims and the solidity of the
           vendor. Please be advised that the decision to change this direction was not taken
           lightly and only pursued after significant consultation with the vendor and exhaustive
           research into the practicality of alternatives. We stand prepared to discuss these
           matters in further detail in a more discrete fashion.
               Our deliberations concluded that the foundation for a robust information and
            communication system required a different approach.      While RolP technology may
           be preferable when spanning large geographic areas (versus the traditional 'hub and
           spoke' architecture of legendary microwave and landline technologies), NPD was
            concerned with creating a foundation capable of multiple application layers and




                                            - 23 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 6 of12


           supportive of growth and new technology. In short, we wanted to build a foundation
           that would provide the benefits on an RolP installation and more. We vetted our
           concerns and revisionary ideas through New Jersey State Police technicians and other
           state representatives. Uniformly, they endorsed our assessment and revised plans.
               We are gratified to see that our revised direction has proven fruitful and correct.
           The network built with the 2003 COPS grant has provided a prefect foundation for
           effective and wide-reaching voice and data-sharing as well as a platform for other
           important police applications. We regret that a formal approval from COPS for our
           proposed change of plans was not secured. We share similar regret for our failure to
           submit a revised budget. As you are aware, we did communicate our concerns and
           likely pursuit of a more suitable direction by letter dated October 13, 2003 to Director
           Carl R. Peed.     And, while it does not appear that NPD received any contrary
           indication from COPS in response, we nonetheless implemented additional protocols
           regarding grant development and management (described below) to ensure this type
           of failure to communicate does not repeat itself.
               The wireless network we have created utilizing the 2003 COPS grant supports
           voice applications, information sharing database applications, gunshot detection
           applications and network of over 1SO surveillance cameras.            Accordingly, we
           respectfully submit that we have in fact implemented a strong voice communication
           component within our wireless network solution in adherence with the stated purpose
           of the COPS Interoperable Communications Technology Program. We believe our
           direction and the Phases (described above) implemented to date to be far-sighted, in
            the spirit of the 2003 COPS grant and in the best interest of the taxpayers of the City
           of Newark.
            b. Purchase of equipment not competitively procured and not authorized for
               purchase under the New Jersey Cooperative Purchasing Program.
           Non-concurrence - NPD took pains to ensure that the purchases were made
            appropriately and in compliance with state requirements. By way of explanation and
            defense, NPD communicated with 3 separate NJ State Contract Vendors (NJ Business




                                            - 24 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 7 of12


           Systems, Promedia, Inc. and TransNet Corporation). Promedia, Inc. and TransNet
           Corporation stated that every part was included on the their NJ State Mini Micro
           Computer contract. NJ Business Systems indicated that all of the equipment would
           be added to their NJ State contract within weeks of sUbmitting the quotes.
           Documents provided by NJ Business Systems indicated that they were successful in
           this regard. NPD relied upon this representation.
               Specifically, I attach, as Exhibit A, a July 13, 2004 Police Department
           Administrative Submission recommending NPD pursue the purchase from NJ
           Business Systems because of their state-approved status and independent
           confirmation that every part quoted to NPD was properly approved. Attached to the
           July 13, 2004 Submission was a series of correspondence between NJ Business
           Systems and the State of New Jersey evidencing the ultimate inclusion of what NPD
           believed was all the required parts and components to fulfill the quote. These
           correspondences are also attached. We would ask that this finding be reconsidered in
           light of our good faith reliance upon the vendor's representations.      The vendor
           represented that he was fully authorized to sell all of the equipment and, in fact,
           secured any additional approvals needed to satisfY the quote. Accordingly, at no time
           did NPD believe there was non-competed equipment necessitating a competitive bid.
           Any neglect, which is denied in this instance given the attached proofs, is excusable
           and justified.
           c. Purchase of a mobile communications command center vehicle procured
               using overly narrow bid specifications in violation of Newark's procurement
               manual and hindering an open and competitive bid process.
           Non-concurrence - I have been unable to determine the personnel responsible for
           drafting this bid specification and, as such, I am unable to respond fully to this
           finding.   However, I note that, historically, NPD and other response agencies are
           frequently required to acquire vehicles with precise specifications to fit fleet and
           operational requirements.     In this instance, as you are aware, the mobile
           communication command center vehicle was bid out with very specific requirements.




                                          - 25 -
Thomas O. Puerzer
U.S. Department of Justice
April 13,2012
Page 8 of 12


           The specification requirements were created with vendor input but not in a fashion
           intended to preclude competitive bidding.       As evidenced by the Administrative
           Submission referred to above in response to Recommendation l.b and the
           accompanying emails regarding NJ Business Systems, NPD seeks to comply, and is
           conscious of strict compliance, with state public contracting requirements. We have
           reviewed the Draft Audit Report and are reviewing internal policies to ensure that
           there is no perception of unfair advantage in the bidding process.
           d. Purchase of surveillance cameras denied by COPS during the gl·ant budget
               review.
           Concurrence - This material was charged to the wrong line item. The error was
           clerical.   Please take note that NPD had access to two separate (but related in
           purpose) grants. In fact, the timing and fortuitous nature of the two grants greatly
           influenced NPD's re-evaluation of its direction vis-a-vis its wireless infrastructure.
           More specifically, NPD was the proud recipient of a Homeland SecUlity grant in the
           amount of $997,000. NPD fully understood and appreciated COPS denial of our
           proposal for funding to purchase surveillance cameras. In point of fact, the $62,325
           charge should have been taken against the Homeland Security grant and not the 2003
           COPS grant.
               As further indication of the inadvertent nature of this error, please note that the
           charge in question involves the purchase of 10 surveillance cameras.         The total
           purchase price was $105,000. However, only $62,325 was charged against the 2003
           COPS grant; the balance was properly charged against the Homeland Security grant.
           I respectfully submit that this error was clerical and human in nature.
           e. Purchase of a record management system and other computer equipment not
               related to the project.
           Concurrence - As stated above, NPD was managing two successful grant funds at this
           time. The material in question was charged to the 2003 COPS grant in error.
   2. Remedy the $2,282,513 in expenditures for equipment not adequately supported or
       safeguarded by a property management system with periodic inventories.




                                           - 26 -
Thomas O. Puerzer
u.s. Department of Justice
April 13, 2012
Page 9 of1Z


           Concurrence - There are numerous asset management systems utilized throughout the
           City.   In fact, NPD utilizes an automated system to inventory and tag property
           collected from arrests, etc. There are similar automated systems throughout the City
           but none of the automated systems were dedicated to management of the 2003 grant­
           purchased equipment. Instead, and for certain types of installations, NPD employs a
           manual system that is unfortunately labor intensive. For example, with regard to
           office computer technology, on a quarterly basis, technicians are dispatched to count
           and record all equipment. This information is reported to my office and retained.
               As you may be aware, the City of Newark is in dire financial straits as are many
           municipalities throughout the country.         Presently, the City operates under a
           Memorandum of Understanding with certain monitoring requirements until 2013 as a
           result of acceptance of a loan of $32,000,000 to close a budget gap. This amount
           represents a fraction of Newark's overall budget. Still, and as a result, certain desired
           remedial measures (across City operations and not limited to NPD) have been
           temporarily suspended.
               In the instant situation, NPD was required to rely upon the installation integrator
           to provide a list of installation locations, equipment installed, warranty information,
           serial numbers, etc. We were able to operate with a stronger sense of security that
           material was being installed properly due to the nature, location and function of each
           piece. In other words, given that the equipment is installed permanently on rooftops
           of over 55 properties throughout the City, if equipment fails or is missing, the system
           should report the en·or in the form of a failure of some SOlt.
               NPD acknowledges that the Department of Justice, even recognizing the City's
           financial predicament, may frown upon this manner of asset management. We trust
           your office's physical site inspection ultimately satisfies any substantial concerns
           regarding location, implementation and safeguarding of the equipment purchased
           utilizing the 2003 COPS grant. FUliher, we are hopeful that you will concur that the
           equipment has been well leverage in terms of functionality




                                            - 27 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 10 of 12


                 Please be advised that subsequent to the physical audit, NPD required the vendor
           to provide revisit each site and asset-tag each piece of equipment. I understand a
           copy of this inventory spreadsheet was previously submitted. Given the dimensions
           of the document, I have attached an electronic version to my digital submission of
           this response. To further remedy this particular matter and to address any future
           compliance questions, NPD is attempting to secure funding to purchase and employ
           an Asset Management system with portable scanners to automate this process.
           Lastly, in 2004, NPD created a Grants Development and Management Unit tasked
           with, among other things, ensuring compliance with the terms and conditions of
           specific grants (discussed below).
    3. Ensure Newark implement and adhere to policies and procedures for submitting
        timely FSRs and accurate progress reports.
           Concurrence - As stated above, in 2004, NPD implemented a policy and personnel
           unit related to the administration of grants. General Order 04-03 established the
           Grants Development and Management Unit. Copies of the General Order and the
           Director's Memorandum implementing the General Order are attached as Exhibit B.
           The Unit is charged with, among other things, ensuring adherence to policies and
           procedures for submitting and administering grants. Since its implementation, NPD
           has successfully applied for and been awarded 25 federal and state grants. NPD has
           successfully administered over $35 million dollars in grant funds. NPD submits that
           creation of the Grants Development and Management Unit, together with the policies
           and     procedures    attending   the   unit,   fully   and   successfully   remedy   this
           recommendation.
    4. Ensure that Newark implements and adheres to policies and procedures to
        adequately administer grant funding that address our concerns over the related
        internal controls.      These include, but should not be limited to the following:
        adhering to procurement regulations, approving grant expenditures in accordance
        with applicable budgets and safeguarding equipment.




                                             - 28 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 11 of 12


           Concurrence - As stated above, in 2004, NPD implemented a policy and personnel
           unit related to the administration of grants.   General Order 04-03 established the
           Grants Development and Management Unit. Copies of the General Order and the
           Director's Memorandum implementing the General Order are attached. The Unit is
           charged with, among other things, ensuring adherence to policies and procedures for
           submitting and administering grants. Since its implementation, NPD has successfully
           applied for and been awarded 25 federal and state grants. NPD has successfully
           administered over $35 million dollars in grant funds. NPD submits that creation of
           the Grants Development and Management Unit, together with the policies and
           procedures attending the unit, fully and successfully remedy this recommendation.


       In conclusion, I respectfully submit that the Newark Police Department has set itself apart
as an exemplary recipient and administrator of federal and state grants. We have successfully
and effectively leveraged 25 grants in fashions designed to benefit the taxpayers of the City of
Newark as well as the public at large. The Newark Police Department recognizes the integral
role it plays in public safety within the New YorklNew Jersey metropolitan area and remains
committed to acting in a manner conscious of the betterment and safety of the entire area. We
believe the 2003 COPS grant has been invaluable in this regard and was utilized as contemplated
by the grant requirements and our proposal. It has served as a valuable learning and growing
experience for this Department and serves as a strong scalable tool for interoperable voice
communication and data sharing within our metropolitan area.


Respectfully submitted,

Samuel A. DeMaio, Police Director



::' p"(dZ·
cc:    Mayor Cory Booker




                                           - 29 -
Thomas O. Puerzer
U.S. Department of Justice
April 13, 2012
Page 12 of12


       Donald James Lango, COPS Audit Liaison (via email (donald.lango@usdoj.gov) and
       regular mail (US DOJ, Audit Liaison Division, 145 N. Street, N.E., Washington, DC
       20530))
       Assistant Business Administrator Adam Cruz
       First Assistant Corporation Counsel Clyde Otis III
       Peter Lutz, MIS Director, NPD
       Sgt. Joseph Pastore, NPD




                                       - 30 -
                                                                                            APPENDIX IV


OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT



                    u.s. DEPARTMENT OF JUSTI C E
                    OFFI C E. OF COMMUNITY ORIENTED POLICING SERV I C ES

                    Grant Operations Directorate! Audit Liaison Division
                                                                                    COPS
                    145 N Stret:t. N.E .• Washington . D C 20BO



    Via Electronic alld U.S. Mail

    To:           Thomas O. Puerzer
                  Regional Audit Manager
                  Office of the inspector General
                  Philadelphia Regional Audit Office

    From :         Donald J. Lango   ."r;p.-
                   Management Analyst/Audit Liaison
                   COPS Audit Liaison Division

    Date:          April 17,201 2

    Subject:       Response to Draft Audit Report for the C ity of Newark, New Jersey

    This memorandum is in response to your March 20, 2012, draft audit report for the City of
    Newark , New Jersey (Newark). For ease of review, each audit recommendation is stated in bold
    and underlined. followed by COPS' response to the recommendation.


    Recommendation I: Remedy the $3,539,43216 in unallowable expenditures resulting from:
    (a) project changes that were not approved by COPS and failure to achieve the voice
    communication objective of the grant (net project costs of $3,539,432); (b) purchase of
    equipment not competitively procured and not authorized for purchase under the New
    .Jersey Cooperative Purchasing Program (net expenditures of $2,777,569); (c) purchase of a
    mobile communications command (cntcr vehicle nroeured using overly narrow bid
    specifications in violation of Newark's' procurement manual and hindering an open and
    competitive bid process ($626,221); (d) purchase of surveillance cameras denied by COPS
    during the grant budget review (S62J2S); and (e) purchase of a record management system
    and other computer equipment not related to the project (S73J16l.

    The COPS Office concurs that grantees cannot expend funds on unallowable expenditures.

    Discussion and Planned Action:
    In order to remedy the $3,539,43216 in questioned costs. the COPS Office has determined that
    additional information and clarification is required before we can make a fin al decision as to how
    to proceed. Therefore. COPS will work with the grantee to obtain additional infomlation. Once
    a decision is made on how we pl an to remedy thi s recommendation, the COPS Office will
    provide your office with our plan.

    Request:
    Based on the discussion and planned action, COPS requests resolution of Reconunendation I.



    ADVANCING PUBLI C SAFETY THROUGH COMMUNITY POLICING
                                                     •

                                                   - 31 -
Thomas O. Puerzer, Regional Audit Man£tger
April 17, 2012
Page 2


Recommendation 2. Remedy the $2.282.513 in expenditures for equipment not adequately
supported or safeguarded by a property management system with periodic inventories.

The COPS Office concurs that grantees must safeguard grant-funded eq uipment by maintaining a
property management system and by perfonning periodic inventories.

Discussion and Planned Action:
In order to remedy the $2,282, 513, the COPS Office has determined that add itional infornHtion is
required before we can make a final decision as to how to proceed. Therefore, COPS will work with
the grantee to obtai n additiona l information. Once a decision is made on how we plan to remedy thi s
recommendat ion, the COPS Office wi ll provide your office with our plan.

Request:
Based on the discussion and planned act ion, COPS requests resolution of Recommendation 2.


Recommendation 3: Ensure Newark implements and adheres to policies and nrocedures
for submitting timely FSRs and accurate progress reports.

The COPS Office concurs that grantees must implement and follow policies for submitting t imely
FSRs and accurate progress reports.

Discussion and Planned Action :
The COPS Office will ensure that the grantee develops and implements procedures for preparing
and submitt ing timely FSRs and accurate progress reports.

Request:
Based on the discussion and planned action, COPS requests resolution of Recommendation 3.


Recommendation 4: Ensure that Newark implements and adheres to policies and
procedures to adequately administer grant funding that address our concerns over the
related internal controls. These include. but should not be limited to the following:
adhering to procurement regulations. approving grant expenditures in accordance with
annlicable budgets. and safeguarding equipment.

The COPS Office concurs that the grantee must implement and follow policies and procedures to
adequately administer grant fund s.

Iliscussion and Planned Action:
In order to remedy this recommcndation , the COPS Office will ensure that the grantee develops
and implements polic ies and procedures to adequately admini ster grant fundin g. These will

ADVANCING PUB LI C SAFETY THRO UGH COMMUN ITY POLICING
                                                •


                                             - 32 -
Thomas O. Puerzer, Regiona l Audit Manager
Apdl 17, 20 12
Page 3


include policies: I) to ensure adherence to procurement regulat ions; 2) for approving
expenditures in accordance with approved grant budgets; and 3) for safeguarding equipment.

Request:
Based on the discussion and planned action, COPS requests resolution of Recommendation 4.


COPS would like to thank you for the oppoJ1unity to review and respond to the draft aud it repoJ1 .
If you have any questions, please contact me at 202·6 16-92 15, or you may ema il me at
donald. lango@ usdo j.gov.




                                              ..
ADVANC I NG PUBLI C SAFETY THRO UG H CO MMUNITY POLIC I NG




                                             - 33 -
Thomas O. Puerzer, Regional Audit Manager
April 17, 20 12
Page 4


cc:    provided electronically

       Louise M. Duhamel, Ph. D.
       Acting Director
       Audit Liaison Group
       Justice Management Division
       alo@usdoj.gov

       Mary T. Myers
       Audit Liaison Group
       Justice Management Division
       alo@usdoj.gov

       Jacqueline Picard, Grant Program Speciali st
       Grant Adm inistration Division
       Office of Community Oriented Policing Services

       Marcia Samuels-Campbell
       Acting Deputy Director, Grant Ope rations Directorate
       Office of Community Oriented Policing Services

       Martha R. Viterito
       Se nior Management Analyst, Audit Liaison Division
       Offi ce of Community Oriented Policing Services

       Nancy Daniels, COPS
       A udit Liaison Division
       Offic e of Community Oriented Policing Services

       The Honorable Cory Booker, Mayor
       City of Newark

       Samuel A. DeMaio, Acting Director
       Newark Police Department

        Grant File:   2003-lN-WX-OOll

        Audit File

        ORr: NJNPDOO



 ADVANC ING PUBLI C SA FE TY THROUGH COMMUNI T Y POLICING
                                              •


                                            - 34 -
                                                               APPENDIX V


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to Newark and the Office
of Community Oriented Policing Services (COPS) for review and comment.
Their responses were incorporated in Appendix III and IV respectively of this
report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Analysis of Newark’s Response

      In response to our audit report, Newark provided a discussion on the
use of its grant funds in addition to providing a response to the audit
recommendations. This discussion included a general description of a seven
phase technology project that Newark stated it was implementing to
overhaul its Interoperability and Communication and Data Sharing platform.
Newark’s response stated that the COPS Interoperability Grant helped fund
the basis for this network and that additional phases remain to achieve full
functionality, but that the ability to achieve the overhaul was due to the
availability of the grant and the manner in which it was employed.

      In response to Newark’s statements on its use of grant funds, we note
that the objective of this audit was to examine the implementation of the
project approved by COPS that was outlined in Newark’s grant application.
As discussed in this report, the COPS Interoperability Grant was provided to
Newark to fund a stand-alone project, not a portion of a phased project.
The stand-alone project was funded through a competitive grant program
where COPS employed an expert peer review panel to evaluate project
proposals submitted by 58 agencies. This evaluation considered applicant
project approaches and cost projections, and Newark was 1 of 14 agencies
selected to receive funding under this grant program. Deviations from
approved project approach upon which the award decision was made must
be approved by COPS in accordance with grant terms and conditions. In
examining Newark’s implementation of the grant-funded project, we found
that Newark deviated from the plan it submitted, but did not provide us with
evidence that COPS approved these deviations. Therefore, Newark denied
COPS the opportunity to evaluate whether the funding provided to Newark
represented the best use of limited grant funds, whether the new project
approach was in line with program guidelines, or other appropriate
considerations COPS may evaluate when reviewing grant modification
requests.

      Newark also stated that the COPS grant was utilized in a manner and
fashion intended by the spirit of the grant. However, our audit examined
                                   - 35 -
Newark’s adherence to terms and conditions of the award, including the
approved use of funds in accordance with the objectives and approach
specified in the application, which we concluded were not achieved with the
COPS grant. Other intentions for the use of funds outside the scope of the
award objectives and approach were not specified in the award documents
we reviewed. Additionally, because we audited the implementation of the
grant-funded project as established in Newark’s application and did not
examine other projects Newark discussed in its response, we did not express
an opinion regarding the accuracy of the statements made by Newark in
regard to the capabilities of its overall communications system or the other
phases of its project that it stated were funded through other sources.
However, Newark’s statements that the COPS grant was only one phase of a
seven phased project provide additional support for our conclusions that it
revised the scope and objectives of its project without approval from COPS
and did not achieve the interoperable voice communication objectives with
the COPS grant as stated in its application. We made minor edits to the
report to clarify these issues.

Finally, Newark concluded its response stating, “…the Newark Police
Department has set itself apart as an exemplary recipient and administrator
of federal and state grants.” We do not agree that this characterization is
accurate based on the findings of this report or Newark’s grant management
history. Specifically, COPS barred Newark from receiving competitively
awarded COPS funding from December 2007 to December 2010. COPS
barred Newark as resolution to significant deficiencies reported in our 1998
audit.18

Summary of Actions Necessary to Close the Report

   1. Resolved. COPS concurred with our recommendation to remedy the
      $3,539,432 in unallowable expenditures resulting from:

           a) project changes that were not approved by COPS and failure to
              achieve the voice communication objective of the grant (net
              project costs of $3,539,432),

           b) purchase of equipment not competitively procured and not
              authorized for purchase under the New Jersey Cooperative
              Purchasing Program (net expenditures of $2,777,569),



      18
         OIG, COPS Grants to the Newark, New Jersey Police Department, Audit Report
GR-70-98-007 (June 1998).

                                        - 36 -
            c) purchase of a mobile command center vehicle procured in a
               manner that likely hindered an open and competitive bid process
               ($626,221)19,

            d) purchase of surveillance cameras denied by COPS during the
               grant budget review ($62,325), and

            e) purchase of a record management system and other computer
               equipment not related to the project ($73,316).

       In its response, Newark disagreed with recommendations 1a, 1b, and
       1c. We address Newark’s response to these recommendations as
       follows.

       1a: In its response, Newark stated that while COPS did not approve
       the project changes for the grant-funded program, “… the changes
       were sufficiently communicated to COPS and the revised plan achieves
       the voice communication objectives of the grant.” However, we do not
       agree with Newark’s contention that changes to the project were
       sufficiently communicated to COPS. In its response, Newark cites a
       2003 communication to COPS in which Newark informed COPS that it
       intended “…to explore alternatives to ensure best practice is
       achieved. Should the Police Department eventually change technical
       direction, a revised budget and rationale will be sent to the COPS
       Office for review and approval.” However, we confirmed with COPS
       that Newark did not submit a revised budget or rationale for any
       changes it made to the scope of its project. As a result, Newark’s
       ultimate use of funds constituted unapproved changes to the project.
       We clarified the report to address details of the 2003 communication
       Newark referenced in its response.

       As stated in this report, in examining Newark’s implementation of the
       grant-funded project, we found that Newark deviated from the plan it
       submitted, but did not provide evidence that COPS approved these
       deviations. Therefore, Newark denied COPS the opportunity to
       evaluate whether the funding provided to Newark represented the best
       use of limited grant funds, whether the new project approach was in
       line with program guidelines, or other appropriate considerations COPS
       may evaluate when reviewing grant modification requests.



       19
        As discussed in the analysis of recommendation 1c, the scope of the
recommendation presented in the draft report was clarified in this final report.

                                            - 37 -
Additionally, we disagree with Newark’s position taken in its response
that the capabilities of a much larger seven phase project, of which
only the first phase was related to this grant, justified the
unauthorized, significant changes made to the proposal COPS selected
using an expert peer review panel. We also disagree with Newark’s
suggestion that our audit “…should have verified that the 2003 COPS
funds were used in a manner consistent with the spirit and intention of
NPD’s grant proposal” as the unauthorized changes were not
comparable to the original proposal. Therefore, Newark should have
ensured it obtained authorization before deviating from the approved
project.

Newark stated that its seven phase project, “…supports voice
applications…” and that it has “…in fact implemented a strong voice
communication component within our wireless network
solution….” Throughout our audit, we discussed our findings with
Newark’s project manager, including the finding that voice
communication capability had not been achieved. Newark’s project
manager repeatedly told us that the wireless network that the COPS
grant partially funded was not being used for voice communication as
described in the original grant proposal approved by COPS. We also
requested, but never received or reviewed as a part of the audit, data
usage reports that may have demonstrated how Newark’s system was
being used for voice communication.

Newark’s response went on to conclude that the grant was used “…in
the best interest of the taxpayers of the City of Newark.” It is
important to note that in accepting the award, Newark agreed to abide
by the grant award’s terms and conditions. We do not believe that
Newark’s responsibility to the taxpayers of the City of Newark was
inconsistent with, or prevented Newark from abiding by, the terms and
conditions of the award.


1b: In its response to recommendation 1b, Newark provided
documents from its vendor. During our audit, we analyzed these same
documents and found that the documentation does not support the
state authorization necessary for the vendor to sell all of the
equipment Newark eventually purchased. Specifically, the documents
clearly indicate, upon thorough review, that only six types of
equipment were approved for sale by the state. We found that
Newark used grant funding to purchase various quantities of these six
types of equipment totaling $309,770. However, the remaining


                             - 38 -
equipment Newark purchased with grant funding, totaling $1,899,427,
was not approved. (Newark purchased a total of $2,209,197 in
equipment from the contract using the grant, including $2,146,872 in
wireless network equipment and $62,325 in video surveillance
cameras identified in the “Wireless Network Equipment” sub-section of
the Expenditure section of this report.)

In its response, Newark also requested that we reconsider our finding
“…in light of [Newark’s] good faith reliance upon the vendor’s
representations.” Newark also asserted in its response that “any
neglect, which is denied in this instance given the attached proofs, is
excusable and justified.” We believe it is important to note that COPS
awarded the grant to the City of Newark, and not to the vendor on
which Newark relied. As a result, Newark was responsible to COPS for
ensuring that it adhered to applicable procedures in all grant
transactions, including procurements. We believe relying solely on
vendor representations is not sufficient to ensure compliance with the
federal procurement regulations set forth in the grant terms and
conditions, and Newark failed to ensure that the equipment being
represented by the vendor was actually authorized for sale. Further,
given Newark’s role as the grant recipient, which is primarily
responsible for grant management, we disagree that these documents
or Newark’s reliance on the vendor relieved Newark of any of its
responsibilities related to this procurement.

1c: In its response to recommendation 1c, Newark did not concur with
our finding, but stated it was unable to fully respond because the
personnel responsible for drafting the bid specification could not be
identified. Additionally, Newark stated, “The specification
requirements were created with vendor input but not in a fashion
intended to preclude competitive bidding.”

Our report does not conclude that Newark intended to preclude
competition. However, we believe that an open and competitive bid
process was likely hindered by Newark’s pre-existing relationship with
the vendor because, as we discussed in the report: (1) Newark
identified the eventual vendor in its March 2004 sole source
procurement request, which was denied by COPS; (2) the eventual
vendor provided several specifications and prototype drawings prior to
Newark’s procurement request to COPS; (3) Newark advertised the
specification approximately 10 months after its request was denied;
and (4) fifteen firms responded to the advertisement requesting the



                              - 39 -
   full bid specification, but only the eventual vendor submitted a bid
   proposal.

   Newark also stated in its response that it is frequently required to
   acquire vehicles with precise specifications to fit fleet and operational
   requirements, and did so for the command center vehicle. Our
   recommendation in the draft report was not intended to limit bid
   requirements necessary for procurement of purchases in accordance
   with Newark’s procurement rules, but rather was intended to focus on
   purchases that may violate those rules. As a result, we clarified the
   scope of the recommendation in the final report.

   1d: Newark concurred with recommendations 1d and 1e related to the
   use of grant funds to purchase equipment unrelated to the grant
   project.

   1e: Newark concurred with recommendations 1d and 1e related to the
   use of grant funds to purchase equipment unrelated to the grant
   project.

   This recommendation can be closed when we receive documentation
   demonstrating the remedy of the questioned costs, totaling
   $3,539,432, due to unallowable expenditures.

2. Resolved. COPS concurred with our recommendation to remedy the
   $2,282,513 in expenditures for equipment not adequately supported
   or safeguarded by a property management system with periodic
   inventories. In its response, COPS stated that additional information
   and clarification is required before it can make a final decision as to
   how to proceed and provide its plan to remedy the recommendation.

   Newark also concurred with this recommendation and provided an
   explanation regarding the finding, stating that Newark has numerous
   asset management systems. Additionally, Newark’s response cited
   dire financial straits as an explanation for the reliance on the
   installation integrator for maintaining the equipment list, and
   explained it was operating under a memorandum of understanding
   with the State of New Jersey that helped the city cover recent budget
   shortfalls. Although we recognize that Newark’s poor fiscal condition
   as evidenced by the agreement with the State may make it difficult for
   Newark to properly safeguard the equipment purchased with grant
   funding, this does not relieve Newark of its responsibilities under the
   grant.


                                  - 40 -
  Newark also stated that it is “…able to operate with a stronger sense of
  security that material was being installed properly due to the nature,
  location and function of each piece”, and that “…if equipment fails or is
  missing, the system should report the error in the form of a failure of
  some sort.” Although the system capabilities described in Newark’s
  response may have value, it is no substitute for the accountable
  property safeguards required by 28 C.F.R.§ 66.32 and described
  earlier in this report.

  In addition, Newark referred to our attempt to inspect some
  equipment installed around Newark and stated, “We trust your office’s
  physical site inspection ultimately satisfies any substantial concerns
  regarding location, implementation, and safeguarding of the
  equipment purchased utilizing the 2003 COPS grant. Further, we are
  hopeful that you will concur that the equipment has been well
  leverage[d] in terms of functionality.”

  Our attempt to inspect equipment purchased with grant funding did
  not satisfy our concerns regarding the safeguarding of this equipment
  or that all equipment was delivered as invoiced because we were not
  provided reliable evidence that the equipment we viewed was the
  same equipment that was purchased with grant funds. In addition, we
  do not concur that the equipment has been well leveraged since much
  of it was denied by COPS for purchase, not authorized for sale under
  the New Jersey Cooperative Purchasing Program, and was not
  accounted for within an adequate property management system
  required by grant regulations.

  Finally, in its response Newark stated that it required the vendor to
  inventory each piece of equipment and provided a copy of this
  inventory in its response. However, we have not received either of
  these inventory spreadsheets. This recommendation can be closed
  when we receive COPS’ plan and documentation that COPS has
  remedied these questioned costs.

3. Resolved. COPS concurred with our recommendation to ensure that
   Newark implements and adheres to policies and procedures for
   submitting timely FSRs and accurate progress reports, and stated that
   it will work with Newark to address this finding.

  According to Newark’s response, the Newark Police Department issued
  a General Order in 2004 that established the Grants Development and


                                - 41 -
   Management Unit which is responsible for ensuring departmental
   adherence to policies and procedures for submitting and administering
   grants. However, the General Order was in effect during the grant
   award period and audit, and our audit findings indicate that it was
   ineffective to ensure compliance with reporting requirements. As a
   result, we disagree with Newark that this recommendation is
   remedied.

   Further, we reviewed the General Order and determined it was
   inadequate to address our audit findings. Specifically, it does not
   include: (1) grant administration responsibilities for all city
   departments responsible for grant administration or (2) actual policies
   and procedures for ensuring compliance with the grant terms and
   conditions, including the submission of timely and accurate reports.

   This recommendation can be closed when we receive documentation
   demonstrating Newark’s implementation and adherence to financial
   and progress reporting policies and procedures that comply with
   federal regulations.

4. Resolved. COPS concurred with our recommendation to ensure that
   Newark implements and adheres to policies and procedures to
   adequately administer grant funding that address our concerns over
   the related internal controls. These include, but should not be limited
   to the following: adhering to procurement regulations, approving
   grant expenditures in accordance with applicable budgets, and
   safeguarding equipment. It its response, COPS stated that it will
   ensure Newark develops and implements policies and procedures to
   administer grant funding adequately.

   According to Newark’s response, the previously discussed General
   Order issued in 2004 and the creation of the Grants Development and
   Management Unit fully and successfully remedied this
   recommendation. Again, since this General Order and the Grants
   Development and Management Unit were in existence during the grant
   award period and audit, they appear to have been inadequate to
   prevent the deficiencies we found. As a result, we disagree with
   Newark’s position.

   This recommendation can be closed when we receive documentation
   demonstrating Newark’s implementation and adherence to financial
   and progress reporting policies and procedures that comply with the
   federal regulations.


                                 - 42 -
